Report No. D-2010-051                  April 8, 2010





           Defense Contract Management Agency
          Acquisition Workforce for Southwest Asia

Additional Information and Copies
To obtain additional copies of this report, visit the website of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ACO            Administrative Contracting Officer
CCAS           Contingency Contract Administration Services
DAU            Defense Acquisition University
DAWIA          Defense Acquisition Workforce Improvement Act
DCMA           Defense Contract Management Agency
FAR            Federal Acquisition Regulation
FRAGO          Fragmentary Order
GAO            Government Accountability Office
JCC I/A        Joint Contracting Command Iraq/Afghanistan
LOGCAP         Logistics Civil Augmentation Program
MOA            Memorandum of Agreement
QAR            Quality Assurance Representative
SWA            Southwest Asia
TWCA           Theater-Wide Contract Administration
USD(AT&L)      Under Secretary of Defense for Acquisition, Technology, and Logistics
                                INSPECTOR GENERAL 

                               DEPARTMENT OF DEFENSE 

                                 400 ARMY NAVY DRIVE 

                            ARLINGTON, VIRGINIA 22202-4704 





                                                                             April 8, 2010

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
              DIRECTOR, DEFENSE CONTRACT MANAGEMENT
                 AGENCY
              DIRECTOR, DEFENSE ACQUISITION UNIVERSITY

SUBJECT: Defense Contract Management Agency Acquisition Workforce for Southwest
          Asia (Report No. D-20 I 0-051)


We are providing this report for review and comment. We considered management
comments on a draft of this report from the Director, Defense Procurement and
Acquisition Policy, when preparing the final report. The Director's comments were
responsive to the intent of the proposed recommendations.

DOD Directive 7650.3 requires that recommendations be l'esolved promptly. Based on
Director, Defense Procurement and Acquisition Policy, comments, we revised final
report Recommendations A.I.a. and B.1. We request further comments from the Under
Secretary of Defense for Acquisition, Technology, and Logistics on           .
Recommendation B.! by May 10,2010. We also request that the Director, Defense
Contract Management Agency, verify the implementation of Recommendations A.2. and
B.2.b by May 10,2010, or provide specific date(s) when the recommended actions will
be completed.

If possible, send a .pdf file containing your comments to audacm@dodig.mil. Copies' of
your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the / Signed / symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the cOUl1esies extended to the staff. Please direct questions to me at (703)
604-9201 (DSN 664-9201).                                                     "

                                       ~IE,
                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management
Report No. D-2010-051 (Project No. D2008-D000AB-0266.000) 	                        April 8, 2010

               Results in Brief: Defense Contract
               Management Agency Acquisition Workforce
               for Southwest Asia
                                                          Acquisition Workforce Improvement Act
What We Did                                               certification.
Our objective was to determine Defense
Contract Management Agency (DCMA)                      In addition, of the 75 position descriptions
requirements to support Southwest Asia (SWA)           DCMA provided, 30 position descriptions were
contracting operations and the number of               either incorrect or did not have a requirement
available DCMA civilian, military, foreign             for certification.
national, and support contractors supporting the
operations. Specifically, we determined                What We Recommend
whether DCMA identified its requirements to            The Under Secretary of Defense for
support SWA contracting operations. We also            Acquisition, Technology, and Logistics
evaluated whether a sample of the DCMA                 (USD[AT&L]) review quarterly DCMA
acquisition workforce for SWA was adequately           Southwest Asia acquisition workforce
trained and certified.                                 requirements and reduce the grace period to
                                                       obtain required certifications to 6-months for
What We Found                                          contingency operations.
As of December 31, 2008, DCMA provided                 The Director, DCMA, define acquisition
contract oversight and contract administration         workforce requirements for Southwest Asia,
for contract actions valued at $1.3 trillion.          review and update personnel training records to
DCMA could not determine its resource                  ensure candidates possess required training and
requirements for contractor oversight and              certification before deployment on contingency
contract administration in SWA because:                operations.
		 DCMA is reactive rather than proactive in
    assuming its role to provide contractor            Management Comments and
    oversight and contract administration,             Our Response
		 DCMA did not define its acquisition
    workforce requirements to support                  The Director, Defense Procurement and
    contracting operations in SWA,                     Acquisition Policy, responded for USD(AT&L)
		 AT&L does not require Defense agencies to          and the Director, DCMA. His comments were
    document acquisition workforce                     generally responsive. Based on the Director’s
    requirements, and                                  comments, we revised the recommendation on
		 DCMA must be delegated contractor                  the grace period to obtain required certifications
    oversight and contract administration              for personnel assigned to support contingency
    responsibility for work in SWA.                    operations from 24 months to 6 months. We
                                                       request further comments from the
DCMA Southwest Asia personnel did not have             USD(AT&L) on the revised recommendation.
the proper training and certification for              His comments also noted that four
contingency contracting positions in SWA.              recommendations had been or would be
Specifically, of the 221 DCMA personnel                implemented in December 2009 or January
training records reviewed from a universe of           2010. We request that the Director, DCMA,
1,170 from FY 2004 through FY 2009:                    provide verification that two of the agreed-to
 103 DCMA personnel were not fully                    recommendations have been implemented or
    qualified for the position occupied, and           provide specific date(s) when the recommended
 57 quality assurance representatives did not         actions will be completed.
    have or could not produce proof of Defense

                                                   i
Report No. D-2010-051 (Project No. D2008-D000AB-0266.000)                  April 8, 2010

Recommendations Table

Management                       Recommendations            No Additional Comments
                                 Requiring Comment          Required
Under Secretary of Defense for   B.1.                       A.1.a, A.1.b
Acquisition, Technology, and
Logistics
Director, DCMA                   A.2., B.2.b                B.2.a, B.2.c, B.2.d

Please provide comments by May 10, 2010.




                                           ii
Table of Contents

Introduction                                                                   1


      Objectives                                                               1

      Background                                                               1

      Review of Internal Controls                                              4


Finding A. Acquisition Workforce Requirements                                  5


      Recommendations, Management Comments, and Our Response                   9


Finding B. Defense Contract Management Agency Workforce Qualifications        12 


      Recommendations, Management Comments, and Our Response                  18 


Appendices

      A. Scope and Methodology                                                22 

      B. Prior Coverage                                                       23 

      C. Gansler Commission Report Recommendations                            25 

      D. Sample Methodology                                                   28 

      E. Administrative Contracting Officers in Southwest Asia                29 


Management Comments

      Under Secretary of Defense for Acquisition, Technology, and Logistics   30 

Introduction
Objectives
The overall objective of this audit was to determine Defense Contract Management
Agency (DCMA) requirements to support Southwest Asia (SWA) contracting operations
and the number of available DCMA civilian, military, foreign national, and support
contractors supporting the operations. Specifically, we determined whether DCMA
identified its requirements to support SWA contracting operations. In addition, we
evaluated whether the DCMA acquisition workforce for SWA was adequately trained
and certified.

Background
DOD Criteria
DOD Instruction 5000.55, “Reporting Management Information on DOD Military and
Civilian Acquisition Personnel and Positions,” November 1, 1991, established a
management information system capable of providing standardized information on
acquisition positions and on persons serving in acquisition positions. In addition, the
instruction attempts to create a DOD-wide capability for monitoring, reporting, and
tracking the composition, education, experience, and training status of the acquisition
workforce and to establish uniform procedures for submitting manpower, personnel, and
assignment information on selected DOD acquisition workforce civilian and military
personnel. The instruction also establishes procedures for reporting functional and
training-related data on selected DOD civilian and military personnel to evaluate the
mandatory training requirements and status of the acquisition workforce.

DOD Manual 5000.52-M, “Acquisition Career Development Program,” November 1995,
established the DOD Acquisition Career Development Program. The manual includes
procedures for effective career development of the acquisition workforce in the
Department of Defense and incorporates the requirements of section 1746, title 10,
United States Code. The program establishes experience, education, and training
standards for specific acquisition workforce position categories and career fields,
provides for certification guidelines of acquisition workforce members, and provides
career paths for the acquisition workforce.

DOD Instruction 5000.66, “Operation of the Defense Acquisition, Technology, and
Logistics Workforce Education, Training, and Career Development Program,”
December 21, 2005, replaced DOD Manual 5000.52-M. The instruction provides revised
uniform guidance for managing acquisition workforce positions and career development.

DCMA
DCMA is the DOD Component that works directly with Defense suppliers to help ensure
that DOD, Federal, and allied Government supplies and services are delivered on time, at


                                           1


projected cost, and meet all performance requirements. DCMA directly contributes to the
military readiness of the United States and its allies, and helps preserve the nation’s
freedom.

DCMA professionals serve as “information brokers” and “in-plant representatives” for
military, Federal, and allied Government buying agencies during the initial stages of the
acquisition cycle and throughout the life of the resulting contracts. DCMA provides
contract administration services to the DOD acquisition enterprise and its partners to
ensure the delivery of quality products and services to the warfighter.

DCMA reported that its civilian staffing decreased from 19,403 full-time equivalents as
of October 1, 1992, to 9,423 as of December 31, 2008 (a 51 percent decrease). DCMA
military staffing decreased from 570 on January 1, 2003, to 542 as of December 31,
2008. From October 1, 1999 through December 31, 2008, the number of DCMA-
administered contracts increased from 309,000 to 321,000, while the obligated value of
those contracts increased from $866 billion to $1.3 trillion (50 percent increase).
Conversely, during the same period the number of contractors administered by DCMA
decreased from 18,600 to 18,500.

DCMA International
DCMA International is one of six DCMA product divisions. As of July 2009, DCMA
International was staffed with more than 500 civilian and military personnel in
26 countries performing contract administration, business, and performance oversight of
more than 10,000 contracts valued in excess of $8 billion dollars.1 DCMA International
is also responsible for DCMA’s contingency contracting administrative mission in direct
support of the overseas contingency operations in Iraq and Afghanistan.

DCMA Combat Support Center
The DCMA Combat Support Center (a component of DCMA Headquarters) performs
critical communications and emergency planning for all actions and events that affect
Defense contractors. Its two major roles are to be a central communication and
integration link between DCMA, the Joint Staff, and the field activities; and to establish
the policy for how DCMA is to perform as a stand-alone combat support agency. As of
July 2009, the Combat Support Center was staffed with 34 civilian and military
personnel.

Joint Contracting Command Iraq/Afghanistan
The Joint Contracting Command Iraq/Afghanistan (JCC I/A) provides contracting
support of supplies, services, and construction in a manner that directly supports the
operational Coalition Forces mission in the relief and reconstruction of Iraq and
Afghanistan. An October 19, 2007, Acting Under Secretary of Defense for Acquisition,
Technology, and Logistics (USD[AT&L]) memorandum required that upon award of any


1
 DCMA officials stated that the $8 billion does not include the Logistics Civil Augmentation Program
(LOGCAP) because the prime contract management office captures the value of LOGCAP contract actions.


                                                 2


contract, the DOD procuring contracting officer assigns contract administration to the
JCC I/A for the portion of the contract relating to Iraq or Afghanistan. An October 25,
2007, Director, Defense Procurement and Acquisition Policy memorandum required that
DOD procuring contracting officers assign contract administration to the JCC I/A to
oversee contractor compliance with policies, directives, and contract terms and
conditions. The memorandum also directed the JCC I/A to reassign all other Federal
Acquisition Regulation (FAR) Part 42, “Contract Administration and Audit Services,”
contract administration responsibilities to DCMA or a similar organization with relevant
contract administration capabilities.

Memorandum of Agreement
On April 30, 2008, the Commander, JCC I/A, and the Director, DCMA, signed a
memorandum of agreement (MOA) documenting the mutually agreed to Concept of
Operations between JCC I/A and DCMA for the execution of the Theater-Wide Contract
Administration (TWCA) mission. The MOA outlined the procedures for the delegation
of contract administration to DCMA.

The MOA noted that after the procuring contracting officer delegates contract
administration to the JCC I/A, a JCC I/A operations officer would notify a DCMA
theater-wide administrative contracting officer through a delegation letter of JCC I/A
intention to re-delegate contract administration to DCMA. In the MOA, DCMA agreed
to administer contracts including armed security, translator, and interpreter contracts;
hazardous materials contracts; and foreign military sales contracts. DCMA also agreed to
perform multiple contract administration activities including Government property
administration support, commodity-specific quality assurance support, and material
surveillance and receipt inspections on high-risk items such as ammunition. Contract
actions subject to DCMA administration included theater-wide indefinite-delivery,
indefinite-quantity and blanket purchase agreement actions, and regional contracting
centers’ indefinite-delivery, indefinite-quantity and blanket purchase agreement actions
with multiple payments.

Contracts not generally delegated to DCMA under the agreement included simple
commodity contracts, commodity contracts, and service contracts under the simplified
acquisition threshold; and regional contracting centers’ indefinite-delivery, indefinite-
quantity and blanket purchase agreements with orders requiring only one delivery. In
accordance with the MOA, DCMA will not accept delegation of construction contracts.
In the event of a disagreement on actions to be delegated, the MOA established a joint
resolution board, consisting of JCC I/A and DCMA personnel, to discuss the issues and
determine what actions will be performed and by whom.

JCC I/A Contract Actions Delegated to DCMA
According to DCMA, the total value of all contracts delegated to JCC I/A during FY
2008 was $7.5 billion encompassing 41,125 contract actions. During FY 2008, DCMA
accepted TWCA delegations from JCC I/A of 756 contract actions valued at $6.6 billion.




                                             3


JCC I/A delegates approximately 2 percent of its workload and 88 percent of its contract
dollar value to DCMA.2

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for DCMA. DCMA officials did not establish adequate internal controls to
define its acquisition workforce requirements to support contracting operations in SWA
or ensure that the acquisition workforce personnel for those operations were
appropriately trained and Defense Acquisition Workforce Improvement Act (DAWIA)
certified. Implementing recommendations in Findings A and B will improve internal
control deficiencies identified in this report. A copy of this report will be provided to the
senior official responsible for internal controls in DCMA and in the Office of the Under
Secretary of Defense for Acquisition, Technology, and Logistics.




2
 DCMA officials provided the amount; however, we did not validate the data as it was not within the scope
of our audit.


                                                   4

Finding A. Acquisition Workforce
Requirements
DCMA could not determine its resource requirements for contractor oversight and
contract administration in SWA. This occurred because:

      DCMA is reactive rather than proactive in assuming its role to provide contractor
       oversight and contract administration in SWA,
      DCMA did not define its acquisition workforce requirements to support
       contracting operations in SWA,
      AT&L does not require Defense agencies to document acquisition workforce
       requirements, and
      DCMA must be delegated contractor oversight and contract administration
       responsibility for work in SWA.

As a result, DCMA is at high risk for not meeting its mission requirements in SWA to
support overseas contracting operations. Also, the constant turnover of DCMA staff and
lack of written plans results in gaps in the contractor oversight process.

DCMA Acquisition Workforce in Southwest Asia
We requested that DCMA document the number of DCMA civilian, military, foreign
national, and support contractors supporting SWA operations. As of May 2009, the
DCMA SWA Acquisition Workforce included 268 military and civilian full-time
equivalent personnel. DCMA officials noted that DCMA requested and received
FY 2008 and 2009 funding from the Office of the USD(AT&L) to support DCMA
emergency-essential contingency support positions on a continuing basis.

DCMA reported no contractor or foreign national personnel as part of its acquisition
workforce. DCMA officials stated that contractor and foreign national personnel are not
performing FAR Part 42 contract administration functions in SWA. DCMA officials also
stated that DCMA does not (nor is required to) report the number of contractor and
foreign national personnel in the acquisition workforce. However, the Logistics Civil
Augmentation Program (LOGCAP) contract requires contractor personnel to perform
contract administration functions. As a result, an unknown number of contractor and
foreign national personnel may be supplementing the contract administration workforce.
DCMA personnel admitted that they have no model or method for determining the
optimum SWA workforce.

DCMA Contract Administration of LOGCAP Contract
The Army awarded the LOGCAP III contract to Kellogg, Brown, and Root in 2001 and
delegated the responsibility of managing the LOGCAP III contract to DCMA in
August 2006. Although DCMA was delegated contract administration authority for the
LOGCAP III contract, DCMA relied on the prime contractor to perform quality
assurance, inspections, and repair in those facilities. DOD Inspector General (IG) Report

                                            5


No. IE-2009-006, “Review of Electrocution Deaths in Iraq: Part I – Electrocution of Staff
Sergeant Ryan D. Maseth, U.S. Army,” July 24, 2009, found that the prime contractor
did not advise DCMA of electrical deficiencies in facilities that soldiers and contractors
occupied. As a result, one service member died in those facilities due to faulty electrical
wiring and improperly grounded electrical equipment. The report stated that the
Government in good faith relied upon the contractor to provide qualified people to do the
work as part of the “workmanlike” standard and quality provisions provided for under the
terms of the contract. In addition, the report stated that LOGCAP III Support Unit
contracting officer acceptance of prime contractor assumptions during contract negotiations
resulted in a false perception that buildings and peripheral equipment were in acceptable
condition during the transfer of Radwaniyah Palace Complex facility operations and
maintenance to LOGCAP III.

The U.S. Army Sustainment Command awarded contract W52P1J-07-D-0010 on
February 16, 2007, to support the LOGCAP oversight duties in performing contingency
operations in SWA. DCMA officials stated they were responsible for administering
contract W52P1J-07-D-0010. DCMA officials also stated that the W52P1J-07-D-0010
prime contractor was not performing FAR Part 42 contract administration functions;
rather, the prime contractor was performing contract administration over the actions of
W52P1J-07-D-0010 subcontractors. DCMA officials noted that the prime contractor
kept them informed of their work on the contract. Furthermore, contract W52P1J-07-D-
0010 clearly stated the prime contractor was to perform contract administration. We
concluded that DCMA officials did not consider the prime contractor’s work to be FAR
Part 42 contract administration functions, nor did they consider contractor personnel to be
part of the acquisition workforce. We plan to perform a follow-on audit of this contract
during FY 2010.

Resource Requirements for Contractor Oversight and
Contract Administration
DCMA could not determine its resource requirements for contractor oversight and
contract administration in SWA because DCMA is reactive rather than proactive and it
had no defined workforce requirements. In addition, DCMA does not have contract
oversight authority unless or until it receives a delegation of contract administration from
the contracting authority. DOD IG Report D-2008-086, “Challenges Impacting
Operations Iraqi Freedom and Enduring Freedom Reported by Major Oversight
Organizations Beginning FY 2003 through FY 2007,” July 18, 2008, stated that DOD
continues to face long-standing problems including:

      lack of adequate contract oversight personnel,
      limited visibility over contractors and contractor activity, and
      limited collection and sharing of institutional knowledge.

The lack of personnel to perform contractor oversight was more severe for demanding
contracting environments such as Iraq and Afghanistan. Without an adequate number of



                                             6


personnel to perform oversight of the contractors, DOD increases its risks that contractors
are not meeting contract requirements.3

Acquisition Workforce Planning
DCMA officials stated that they are reactive rather than proactive in supporting SWA
contract operations because the contract workload guides their acquisition workforce
planning requirements. DCMA officials also stated that they cannot plan ahead for the
number of personnel needed in SWA to support contracting operations because they do
not know what the contract workload will require in acquisition workforce personnel over
the next 6 months. If the Office of the USD(AT&L), JCC I/A, and DCMA do not plan
on at least a quarterly basis to support contracting operations in SWA, they risk
acquisition workforce personnel shortages and may not be able to provide continuous
contract oversight and administration.

Acquisition Workforce Requirements
DCMA officials did not define their acquisition workforce requirements to support
contracting operations in SWA. DCMA officials also noted there is no mathematical
model to determine how many personnel are needed to support contracting operations.
The DCMA SWA field commanders generate requirements for additional personnel
through an e-mail to DCMA International. DCMA International validates the
requirement for additional personnel. After verification, the DCMA Combat Support
Center fills the requirement and within 90 days personnel are deployed for 6 months to
support contracting operations in SWA. DCMA officials noted that all notifications for
additional personnel are generated through e-mail.

Requirements to Document Acquisition Workforce
DCMA officials stated that they have no acquisition workforce plan and there was no
DOD guidance that required DCMA to formally define its workforce requirements. We
reviewed DOD policy and guidance and found no existing criteria that require Defense
agencies to document acquisition workforce requirements. However, without a plan that
realistically accounts for the ongoing and future workload and the workforce needed,
DCMA cannot effectively transfer knowledge of the many programs it oversees to its
highly transitory acquisition workforce or oversee the programs. AT&L should provide
guidance requiring Defense agencies to document their acquisition workforce
requirements.

Delegation Letters
DCMA officials stated that they have no authority to perform work on a contract until
they receive a JCC I/A delegation letter. The JCC I/A delegation letters guide the DCMA
acquisition workforce requirements to support contracting operations in SWA. However,
JCC I/A has taken several months to notify DCMA in a delegation letter to provide

3
 Also noted in GAO Report No. GAO-07-145, “Military Operations: High-Level DOD Action Needed to
Address Long-Standing Problems with Management and Oversight of Contractors Supporting Deployed
Forces,” December 2006.

                                               7

contract administration functions. For example, a February 27, 2008, JCC I/A delegation
letter to DCMA to perform contract administration functions covering security and
translator contracts was for a contract with a start date of April 26, 2007. Another
contract under the same delegation letter had a start date of October 1, 2007. Therefore,
DCMA may not have contract oversight and administration over a contract until several
months after the start date.

Meeting DCMA Mission Requirements
DCMA may be unable to meet its mission requirements in SWA to support overseas
contracting operations. See Appendix C for a detailed discussion of the Gansler
Commission Report recommendations and subsequent DoD actions. The constant
turnover of DCMA staff and lack of written documentation inhibits continuity of
operations and effective knowledge transfer within the acquisition workforce. Planning
documentation would provide assurance that DOD assets are safeguarded from fraud,
waste, and abuse, and ensure that the warfighter is not adversely impacted due to lack of
oversight.

In June 2009, the Commission on Wartime Contracting in Iraq and Afghanistan4 issued
an interim report to Congress, “At What Cost? Contingency Contracting in Iraq and
Afghanistan.” The report noted that DCMA was responsible for applying a uniform set
of oversight procedures to ensure that DOD contractors are held accountable for failure to
comply with laws, regulations, and contract terms and conditions. The Commission
noted that inadequate oversight, combined with poorly written statements of work, lack
of competition, and contractor inefficiencies have contributed to billions of dollars in
wasteful spending. The Commission noted that the lack of Government subject matter
experts allowed safety hazards and contractor inefficiencies to go undetected.

The Commission noted that DCMA should be staffed with additional administrative
contracting officers and quality assurance representatives. The Commission also noted
that the scarcity of property administrators would impede management of the vast amount
of material in theater. Further, the lack of trained and experienced Government oversight
personnel, such as quality assurance representatives, greatly increases the risk of
contractors failing to properly execute the terms and conditions of the contract.

Management Corrective Actions
In March 2009, the Director, DCMA, announced that senior leadership had agreed on the
key elements of a strategic plan, finalized plans for a functional alignment, and identified
the following priorities that DCMA must focus on:

    		 “grow” and retool the Agency workforce through an intern program and increase
        emphasis on external recruitment and internal development;


4
  In 2008, Congress established the Commission on Wartime Contracting in Iraq and Afghanistan in
response to increasing indications of widespread waste, fraud, and abuse in Government contracting.

                                                    8


      develop and assess functional skills requirements needed to renew workforce
       competence in core processes starting with contracting, quality, and engineering;
       and
      establish policy infrastructure, define policy structure, and promulgate policy and
       process guidance.

As of July 2009, DCMA had established a team to develop a detailed Concept of
Operations for its planned realignment. In August 2009, DCMA published a strategic
plan for FY 2009 through FY 2013.

Conclusion
DCMA can not readily identify what resources it needs to provide contract oversight and
contract administration in SWA because it must rely on receiving a delegation letter from
the JCC I/A before determining the number of personnel that will be needed. AT&L
needs to provide guidance to help Military Departments and Defense agencies identify
acquisition workforce requirements. DCMA needs to define requirements for its civilian
and military acquisition workforce to support contracting operations in SWA and ensure
continuous contractor oversight and contract administration. In a Defense AT&L
interview, “Taking DoD Contracting From Good to Great,” May-June 2009, the Director,
DCMA stated that human capital staff members have been diligently working on creating
an updated Strategic Human Capital Plan focused on creating a vision for the DCMA
workforce of the future. The plan would focus on building and managing an acquisition
workforce that can meet current and future needs. The Director also stated that DCMA
would use workforce development funds to “grow” its workforce and DCMA had
assessed the current skills and competencies of the agency as well as future requirements
identified by its customers to determine the agency’s personnel shortfalls.


Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics:

       a. Revise DOD Instruction 5000.66, “Operation of the Defense Acquisition,
Technology, and Logistics Workforce, Education, Training, and Career
Development Program,” December 21, 2005, to require Defense agencies to develop
guidance to identify acquisition workforce requirements including the number of
military and civilian personnel needed to support their acquisition and contracting
operations.

Management Comments
The Director, Defense Procurement and Acquisition Policy, responding for the Office of
the USD(AT&L), agreed with the intent of a draft report recommendation to revise DOD


                                            9


Instruction 5000.55. However, the Director stated that DOD Instruction 5000.55 was
being cancelled and that DOD Instruction 5000.66 would instead be revised to require
Military Departments and Defense agencies to develop guidance to identify acquisition,
technology, and logistics workforce requirements in accordance with DOD
Instruction 1400.25, volume 250, “Civilian Strategic Human Capital Planning;” DOD
Instruction 1100.22, “Guidance for Determining Workforce Mix;” and DOD Financial
Management Regulation 7000.14-R, volume 2B, chapter 19. The Director noted that the
revised DOD Instruction 5000.66 would be completed by June 30, 2010.

Our Response
The Director, Defense Procurement and Acquisition Policy, comments were responsive.
No additional comments are required.

      b. Perform quarterly reviews of the Joint Contracting Command
Iraq/Afghanistan requirements of the Defense Contract Management Agency’s
Southwest Asia acquisition workforce.

Management Comments
The Director, Defense Procurement and Acquisition Policy, responding for the Office of
the USD(AT&L), agreed, stating that the Office of the USD(AT&L) will ensure that
DCMA executes these reviews to determine the appropriate DCMA manning level
needed to support Contingency Contracting Administration Services (CCAS). However,
DCMA should not be performing these quarterly reviews in place of the U.S. Central
Command. The Director noted that DCMA is responsible for providing CCAS support to
the U.S. Central Command, and the U.S. Central Command is responsible for giving
DCMA authoritative direction regarding U.S. Central Command’s CCAS requirements to
support its military operations. The Director stated that DCMA then provides by-name
reporting of deployed personnel to U.S. Central Command on at least a quarterly basis.
The Director also noted that the Office of the USD(AT&L) formed and conducted a
separate joint working group and senior leadership management oversight team to discuss
the DCMA CCAS role and responsibilities and the Services’ future role in CCAS.

Our Response
The Director, Defense Procurement and Acquisition Policy, comments were responsive,
and no additional comments are required.

A.2. We recommend that the Director, Defense Contract Management Agency,
develop a written plan within 90 days from the date of this report defining civilian
and military acquisition workforce requirements needed to support contracting
operations in Southwest Asia.

Management Comments
The Director, Defense Procurement and Acquisition Policy, responding for the Director,
DCMA, agreed, stating that although DCMA lacked a documented policy, DCMA


                                          10


collaborated with organizations providing contract delegations and performed resource
requirements analyses in a dynamic contracting support atmosphere. In addition, the
Director stated that DCMA has continuously refined its military and civilian human
capital resource plan and requirements to ensure that it deploys qualified personnel and
meets its delegated theater contract oversight support obligations. The Director noted
that DCMA prepared a draft CCAS concept of operations that provides a concept for
executing the CCAS mission. However, the Director stated that the specific skill sets and
staffing structure required for the CCAS mission is situation-dependent, mission-focused,
and warfighter-requirements driven. The Director noted that DCMA will continue to use
its existing contract receipt and review process to identify and define the required
military and civilian acquisition workforce requirements to support delegated acquisition
support operations in SWA and that DCMA has proactively integrated itself with the
theater leadership command structure to identify, define, and help focus future workload
requirements.

The Director noted that once the concept of operations is published, DCMA will be in
compliance with the intent of Recommendation A.2 to establish written procedures that
define civilian and military acquisition workforce requirements needed to support current
and future CCAS missions. The Director also noted that DCMA will review the current
(draft) concept of operations to ensure that the intent of the recommendation is addressed.
The Director stated the DCMA review would be completed by January 15, 2010.

Our Response
The Director’s comments were partially responsive. In subsequent discussions, DCMA
management agreed that the January 15, 2010 date to develop a written plan defining
civilian and military acquisition workforce requirements to support SWA operations had
not been met, and that DCMA was in the process of adjusting the completion date. We
request that Director, DCMA, provide verification or a date when the recommended
action will be completed.




                                            11


Finding B. Defense Contract Management
Agency Workforce Qualifications
DCMA SWA personnel did not have the proper training and certification for contingency
contracting positions in SWA. Specifically, of the 221 DCMA personnel training records
for FY 2004 through FY 2009 reviewed from a universe of 1,170 personnel deployed to
SWA:

      103 DCMA personnel were not fully qualified for the position occupied, and
      57 quality assurance representatives (QAR) supporting contingency contracting
       operations did not have or could not produce proof of DAWIA certification.

In addition, of the 75 position descriptions DCMA provided, 30 position descriptions
used to support contingency contract operations did not have proper DAWIA certification
levels or contain any requirement for certification. The lack of fully trained personnel in
SWA occurred because:

   		 DOD guidance allows 24 months for an individual assigned to a designated
       position to meet the training and certification requirements even though the
       typical assignment in SWA is only 6 months,
   		 DCMA combat support personnel did not verify applicants’ work experience and
       DAWIA certification before offering or allowing individuals to accept an
       assignment in SWA when the applicants did not require a warrant, and
   		 the DCMA acquisition workforce in SWA is transitory.

As a result, a major part of the DCMA workforce deployed to SWA was not qualified to
support contracting operations in SWA, putting the Government at higher risk for fraud,
waste, and abuse, and the warfighter at higher risk for injury.

Acquisition Workforce Training and Certification Criteria
Defense Acquisition Workforce Improvement Act
The 1990 Defense Acquisition Workforce Improvement Act (DAWIA) (section 1701-
1764, title 10, United States Code) was enacted to improve the effectiveness of the
civilian and military acquisition workforce through enhanced education, training, and
career development, and thereby improve the acquisition process. DAWIA requires
DOD to establish career paths for those people who want to pursue careers in acquisition.

DOD Training and Certification Guidance
DOD Instruction 5000.66 designates and identifies:
   AT&L positions;
   position requirements;
   maintenance of competencies through education, training, and experience;
   management of the Defense Acquisition Corps;


                                            12

        selection and placement of personnel in acquisition positions; and


        workforce metrics. 


Section 4 states:

                  . . . the primary objective of the AT&L Workforce Education, Training,
                  and Career Development Program is to create a professional, agile and
                  motivated workforce that consistently makes smart business decisions,
                  acts in an ethical manner, and delivers timely and affordable
                  capabilities to the warfighter.

Section E2.2.7 defines certification, and section E2.2.7.1 describes the various levels of
certification.

                  Certification recognizes the level to which a member of the AT&L
                  Workforce has achieved functional and core acquisition competencies
                  required by a specific career field. DOD Components certify members
                  of the AT&L Workforce using the uniform DOD certification
                  standards. . . . These functional and core acquisition competencies
                  have been divided into three levels: basic (Level I); intermediate (Level
                  II) and advanced (Level III).

DCMA Southwest Asia Workforce Training and
Certification
DCMA SWA personnel did not have the proper training and certification for contingency
contracting positions in SWA. The DCMA workforce supporting contracting in SWA is
composed of five major positions,5 which consists of the commander, contract
administrator, property administrator, administrative contracting officer, and the quality
assurance representative. Civilian and military personnel from various occupational
series fill these positions.

DCMA Training and Certification Levels
Certification is a means of determining whether personnel are properly trained and
qualified for a specific job. The DAWIA certification process includes basic or core
competencies that acquisition workforce personnel must complete and also includes
functional competencies tailored to specific career fields. The basic, core, and functional
competencies include the knowledge, skills, and abilities necessary to facilitate business
decisions to support DOD in delivering goods and services to the warfighter. A person in
an acquisition workforce position is expected to possess the competencies to perform in
their current assignment and develop their potential for career progression. DCMA
adopted the training and certification levels established in the Defense Acquisition
University (DAU) Career Field Certification and Core Plus Development Guides for its



5
 Contracting officer representatives and contracting officer technical representatives are provided by the
Military Service and not assigned to the DCMA acquisition workforce.


                                                     13

 acquisitio                                                                                                                                   n                   workforce                                                                                                                                                                          .                 Ther                                                                                               e                    i                      s                       a                                  guid                                                                                    e           fo                                           r                 eac                                                                      h               caree                                                             r               fiel                                                              d                   a                                 t                eac                                                   h                  level                                                                   :           Leve                                                                             l   1




 (Entry)                                                                                                   ,          Leve                                                                                    l               I                            I             (Intermediate)                                                                                                                                                                                                                                       ,               an                                                           d                     Leve                                                                             l               II                                         I               (Advanced)                                                                                                                                                                           .        Eac                                                                                     h              guid                                                                      e               i             s             als                                            o                 divide                                                                      d




int                                   o                     a                     t           leas                                                               t             fou                                                                   r                majo                                                                               r                     sections                                                                                                                                           :                Type                                                                                                              s           o                           f                Assignments                                                                                                                                                                                             ,             Cor                                                                    e                   Certificatio                                                                                                                                                                  n              Standards                                                                                                                      ,




Uniqu                                                                                     e                    Positio                                                                                                                         n                     Trainin                                                                                                                            g                 Standards                                                                                                                                                                                         ,           an                                       d                Cor                                                                                e                    Plu                                                     s            Developmen                                                                                                                                                                                                   t           Guide                                                                                    .            Althoug                                                                                                             h           DA                                            U




ha                                s           develope                                                                                                                                                d                           a                                  curriculu                                                                                                                                              m                         t                           o                       mee                                                                                          t                DAWI                                                                                                                   A                         requirement                                                                                                                                                                                s                 an                                               d                           provide                                                                                                              s        specialize                                                                                                                           d




trainin                                                                                          g                   fo                                  r               contingenc                                                                                                                                                                                                y                operations                                                                                                                                                                                                 ,            i                         t      doe                                                          s                    no                                                     t               gran                                                              t     DAWI                                                                                                               A                         certification                                                                                                                                                                         .              T                                       o               achiev                                                                      e




 certification                                                                                                                                                                   ,           a                                            membe                                                                                                                        r                  o                           f             th                                        e                    acquisitio                                                                                                                                                                             n             workforc                                                                                                                                                       e                mus                                                                    t        mee                                                                                t                cor                                                   e              acquisitio                                                                                                                                 n              training                                                                             ,




functiona                                                                                                                             l           training                                                                                                                                               ,        education                                                                                                                                                                ,             an                                                              d                        experienc                                                                                                                                                          e                       standard                                                                                                                      s               befor                                                                                           e                       applyin                                                                                                              g            fo                                     r           certificatio                                                                                                                    n




throug                                                                                         h                     hi                                  s                o                               r                   he                                                 r            DO                                                               D                                  Componen                                                                                                                                                                                                          t           processes                                                                                                                                                                 .            Member                                                                                                                             s             o                                f           th                                                 e              acquisitio                                                                                                                                    n               workforc                                                                                                              e




hav                                                 e                2                             4                  month                                                                                                                    s               fro                                                 m                        th                                                      e               tim                                                           e                      the                                                                     y                     assum                                                                                                          e                    a                             n                        acquisitio                                                                                                                                        n               positio                                                                                                                         n                t                   o                mee                                                            t       thes                                                               e




    standards                                                                                                                             .




 DCMA                                                                                                                        Workforce                                                                                                                                                                                                                                                     Qualification                                                                                                                                                                                                                                                                                                     and                                                                                                                         Certification




DCM                                                                               A                             di                                   d                    no                                                          t            consistentl                                                                                                                                                                           y                ensur                                                                                                                  e                    tha                                                            t       individual                                                                                                                                                                      s          wer                                                     e                       full                                                         y                 qualifie                                                                                                                         d                   an                                       d              certifie                                                                              d                fo                           r




thei                                                    r           jo                                 b                     series                                                                                                        .             Similarly                                                                                                                                                              ,            th                                       e                   DCM                                                                                                                           A                          Comba                                                                                                                              t               Suppor                                                                                           t        Cente                                                                                                          r                   di                                    d               no                                         t           alway                                                                                  s               re-evaluat                                                                                                   e




 qualification                                                                                                                                                                           s                        befor                                                                                               e         assignin                                                                                                                                                       g                   thes                                                                                            e                    sam                                                             e                     individual                                                                                                                                                       s       t                        o                        contingenc                                                                                                                                                                          y                  contractin                                                                                                                                        g




vacancie                                                                                                                         s            i                      n                   SWA                                                                                                         .            W                                                            e                  wer                                                                 e                   abl                                                                        e                       t                          o                    determin                                                                                                                                                 e                  tha                                               t       10                                      3                    o                             f            th                                      e                       22                                                1                personne                                                                                                                          l      record                                                                          s             tha                                t




w                        e                reviewe                                                                                                                         d                      di                                                 d                    no                                                t   hav                                                                              e            an                                               y                      o                                        r             ha                                                          d                        inadequat                                                                                                                                                               e               documentatio                                                                                                                                                                                                          n                   o                             f       trainin                                                                                             g              o                          r




 certificatio                                                                                                                                                n                       a                                    s                    summarize                                                                                                                                                                                 d                i                       n                       Tabl                                                                                                      e                   2                           below                                                                                                        .           Se                                                          e            Appendi                                                                                                                                x                 D                                                  fo                                 r            a                       detaile                                                                                          d                    discussio                                                                                               n




 o               f           th                                      e                sampl                                                                                              e                        methodology                                                                                                                                                                                                                     .




                                                                                                                                                                                                                                          Tabl                                                                         e        2                                          .             Result                                                                                                                s                  o                                          f                   Sample                                                                                                                                d                       Personne                                                                                                                                        l               Record                                                                                                                                              s            Reviewe                                                                                                                          d




                     Sample Categories                                                                                                                                                                                                                                                                                                                                                            | QAR                                                                                                                                                                                          ACO                                                                                                                                               CO                                                                                                                  CA                                                                                                   OPS                                                                                                                                          PA                                                                                      Admin                                                                                                                             Total
No documentation                                                                                                                                                                                                                                                                                                                                                                                                                                  54                                                                                                                                                                            16                                                                                                                             13                                                                                                                       6                                                                                                                0                                                                                                                            6                                                                                                                         0                                                                                                              95
Inadequate certification                                                                                                                                                                                                                                                                                                                                                                                                                                      3                                                                                                                                                                              1                                                                                                                     0                                                                                                                    0                                                                                                                0                                                                                                                            1                                                                                                                         0                                                                                                                       5
for position
No certification                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        3                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               3
 Subtotal                                                                                                                                                                                                                                                                                                                                                                                                                                         57                                                                                                                                                                        20                                                                                                                             13                                                                                                                           6                                                                                                                0                                                                                                                            7                                                                                                                         0                                                                                                    103
 Sufficient documentation                                                                                                                                                                                                                                                                                                                                                                                                                         24                                                                                                                                                                        46                                                                                                                                     9                                                                                                                    9                                                                                                                0                                                                                                                            3                                                                                                                         0                                                                                                              91
No certification required                                                                                                                                                                                                                                                                                                                                                                                                                                     0                                                                                                                                                                         0                                                                                                                          0                                                                                                                    0                                                                                                       20                                                                                                                                    0                                                                                                                         7                                                                                                              27
 Total                                                                                                                                                                                                                                                                                                                                                                                                                                            81                                                                                                                                                                            66                                                                                                                        22                                                                                                                     15                                                                                                             20                                                                                                                            10                                                                                                                                7                                                                                                   221

AC                                               O                                      administrativ                                                                                                                                                                                                                                                                                                                                                             e                   contractin                                                                                                                                                                                          g             office                                                                                                                     r




Admi                                                                              n                              administratio                                                                                                                                                                                                                                                                                                                                    n                       suppor                                                                                                                                                  t




 C                       A                                         contrac                                                                                                                                                                                                                                                                                         t                    administrato                                                                                                                                                                                                                                r




 C                       O                                         commande                                                                                                                                                                                                                                                                                                                                                         r




    OP                                       S                                operation                                                                                                                                                                                                                                                                                                                     s             suppor                                                                                                                                 t




P                    A                                          propert                                                                                                                                                                                                                                                                                        y                              administrato                                                                                                                                                                                                                                   r




QA                                                  R                                   qualit                                                                                                                                                                                                                                      y                        assuranc                                                                                                                                                     e                        representativ                                                                                                                                                                                                                                  e




     DCM                                                                                                         A                                QA                                                                                                           R                                   Position                                                                                                                                                                                                                                        s                                     i                                      n                              Southwes                                                                                                                                                                                                                                            t                  Asi                                                                                                          a




W                                 e              compare                                                                                                                                         d                    8                                         1                    QA                                                          R                                     position                                                                                                                                       s                 i                                n                         SW                                                                A                      wit                                                                      h                        2                          8              DCM                                                                                 A                           QA                                                                         R                              positio                                                                                               n            description                                                                                                                                   s                fo                      r




    SWA                                                                       .          Thos                                                                                            e                        positio                                                                                                               n                       description                                                                                                                                                                                                          s                 describ                                                                                                                         e                  th                                                  e                  dutie                                                             s       o                                    f              th                                    e                   positio                                                                                                             n                an                                     d                  th                                  e                  leve                                           l       o                         f




 experienc                                                                                                                                    e                  desire                                                                                                                   d                  an                                      d                                 required                                                                                                                                           .            Fo                                                                           r                 2                      1                o                               f                th                                        e                        2                           8              QA                                            R                              positio                                                                                                                           n               descriptions                                                                                                                                                                   ,          DCM                                                              A                       di                   d




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               1                     4
not list a requirement for a specific DAWIA certification level. DAWIA Level II
certification was the minimum requirement for the remaining seven position descriptions.
The lack of consistency with regard to position certification levels may contribute to a
DCMA SWA acquisition workforce staffed with personnel not fully qualified to occupy
certain positions.

At the request of DCMA officials, we performed a trend analysis to determine whether
DCMA was improving from one year to another in eliminating the number of training
and certification deficiencies of personnel used to fill its acquisition workforce positions
in SWA and, in particular, the QAR positions from FY 2004 to FY 2009. DCMA
officials stated that policies implemented in FY 2007 had improved procedures for filling
these vacancies.6 Our analysis confirmed that the number of deficiencies in FY 2007 had
decreased but in FY 2008, the deficiencies had again increased as shown in the figure. In
the first quarter of FY 2009, the number of QAR deficiencies was higher than the total
number of deficiencies reported in FY 2007.7

                               Training and Certification Deficiencies

                   35

                   30

                   25
    Deficiencies




                   20                                                                              All
                   15                                                                              QAR

                   10

                   5

                   0
                        2004      2005          2006           2007           2008
                                          Deployments



DCMA Position Descriptions
DOD Instruction 5000.66 states that the heads of DOD Components must design policies
and processes to ensure that the best qualified persons are selected for Acquisition,
Technology, and Logistics positions. The position descriptions are significant tools used
to hire a person that possesses the desired skills to perform specific duties. Therefore, the
position descriptions should be complete, accurate, and correspond with DAU guidance.


6
 Our analysis covered the first quarter of FY 2004 through the first quarter of FY 2009. 

7
 In FY 2007, we identified 6 QAR deficiencies out of 11 total deficiencies. For the lst quarter of FY 2009, 

we identified 8 QAR deficiencies out of 11 total deficiencies. 


                                                    15

However, of the 75 DCMA SWA-related position descriptions we reviewed, 30 did not
contain all of the elements for the specific certification level as outlined in the Career
Field Certification and Core Plus Development Guides. Contrary to DAU guidance,
17 position descriptions did not specify a certification requirement.

DOD Guidance and Filling Southwest Asia Vacancies
The lack of DCMA personnel with appropriate certifications in SWA occurred because:

      DOD guidance allows an incumbent 24 months to meet the training and
       certification requirements,
      DCMA officials did not verify the work experience and DAWIA certification of
       applicants not requiring a warrant before offering or allowing an individual to
       accept an assignment in SWA, and
      the DCMA acquisition workforce is transitory.

24-Month Exception
DOD Instruction 5000.66 allows an individual assigned to a designated position
24 months to meet the training and certification requirements even though the typical
assignment in SWA is only 6 months. DOD Components are responsible for ensuring
that individuals have met the requisite competencies to attain certification requirements
in a timely manner. The core competency areas are: acquisition training, functional
training, education standards, and experience standards. An individual must meet all
these elements before applying for a certification through the respective DOD
Component or organization. When an individual is placed in an acquisition workforce
position, the organization must either document that the appropriate training has been
acquired and that the certification level has been met or establish a plan for these
requirements to be accomplished in 24 months.

DCMA Process to Fill Vacancies in Southwest Asia
DCMA Combat Support personnel did not verify the work experience and DAWIA
certification of applicants not requiring a warrant before offering or allowing an
individual to accept an assignment in SWA. The DCMA Deputy Director, Combat
Support Center, stated that when he received a request to fill a billet in SWA, he did not
always verify that the selected individual possessed the appropriate training and
certification before assigning the individual to the position. DCMA officials stated that
the process for filling those positions varied according to the position itself. According to
the Deputy Director, the process for filling an administrative contracting officer (ACO)
position was to select a candidate from the lists of volunteers, request the warrant
package from DCMA headquarters, and ensure the person met all the necessary criteria to
be warranted. This was done carefully by DCMA personnel because a person with a
warrant can administer and oversee Government contracts.

According to the Deputy Director, the selection process for other SWA positions was not
as thorough. For example, when a QAR position was filled, there was no additional
verification of the candidate’s qualifications. As a result, for the 81 QARs we reviewed

                                             16


that supported contingency contracting operations during FY 2004 through FY 2009,
DCMA did not have or could not produce proof of DAWIA certification for 57.
Consequently, DCMA had no assurance those personnel were qualified to perform their
duties effectively.

DCMA QARs in SWA are typically the Government liaison responsible for facilitating
interaction and coordination between Military organizations, other Government agencies,
and prime/sub-contractor management on QAR issues. DCMA QARs are considered
part of the DOD Acquisition, Technology, and Logistics workforce (which is defined as
those individuals who occupy AT&L positions in the DOD). The QARs deployed to
SWA provide a wide range of contract management services within a harsh environment.
These services include developing quality assurance surveillance plans, implementing
and assessing the effectiveness of the contractor performance, and overseeing the
surveillance activities of the contract officer representatives.

Even though ACO duties and responsibilities vary slightly by region and assignment, the
main focus of an ACO is to administer, monitor, and perform contract oversight that is
critical to the warfighter in a contingency environment. See Appendix E for more
information on the duties of the ACOs in SWA. Similarly, the warfighter is relying on
the QARs to provide the same level of support, and these individuals should be highly
trained and skilled.

Transitory Acquisition Workforce
DCMA does not use permanent billets for SWA operations. Rather, DCMA officials
stated that SWA personnel are deployed for 6-month temporary duty assignments in
support of contracting operations. The DCMA acquisition workforce in SWA is
transitory and changes every month with personnel arriving and departing when their
6 month temporary deployment has expired. In addition, 30 to 45 percent of DCMA
International’s civilian workforce leaves the agency every year. We believe a transitory
acquisition workforce increases the risk of inconsistent contract oversight and
administration.

DCMA has made recent efforts to take into account knowledge management for its SWA
operations. For example, on August 29, 2009, the Commander, DCMA Northern Iraq,
established a template for an eContinuity book as a reference for DCMA Northern Iraq
personnel to share relevant information concerning duty positions. The template includes
information such as points of contact, duties and responsibilities, how to accomplish
common tasks, document examples, equipment information, and the status of work in
progress. Development and continuation of a revised DCMA approach to knowledge
management for its transitory acquisition workforce is needed to reduce the risk that
DCMA will not be able to ensure continuity of SWA contracting operations.

Conclusion
DCMA did not ensure that its workforce in SWA had the proper training and certification
to provide contract management and oversight in a contingency operation. In our sample,


                                           17


much of the DCMA workforce in SWA was not qualified to support contracting
operations in SWA, putting the Government at higher risk for fraud, waste, and abuse,
and the warfighter at higher risk for injury because DCMA did not ensure that those
individuals possessed the required experience and education to administer and monitor
contingency contracts. The acquisition workforce plays a vital role in contingency
contracting operations in SWA. Consequently, it is imperative that selected individuals
be properly trained and certified for positions that support the warfighter before arriving
in SWA. The SWA region is too volatile for DCMA to rely on “on the job” training for
its acquisition workforce. Rather, DCMA should fill these positions with the most highly
experienced and trained workforce that can be provided. Candidates selected to fill these
positions should already possess the required training and certifications before entering
that environment. Without contract training for personnel assigned oversight duties,
DOD cannot be assured that it paid fair and reasonable prices for goods and services
purchased. The lack of a properly trained and equipped oversight staff can have severe
consequences. For example, DOD Inspector General Report No. IE-2009-006, “Review
of Electrocution Deaths in Iraq: Part I – Electrocution of Staff Sergeant Ryan D. Maseth,
U.S. Army,” July 24, 2009, found that DCMA’s lack of contractor oversight and reliance
on contractor assumptions to be contributing factors in the death and injuries of soldiers
and contractors.

Recommendations, Management Comments, and Our
Response
Revised Recommendation
As a result of management comments, we revised Recommendation B.1. to limit the
grace period to obtain required certifications for individuals assigned to positions in
support of contingency operations to 6 months.

B.1. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics revise DOD Instruction 5000.66,“Reporting Management
Information on DOD Military and Civilian Acquisition Personnel and Positions,”
November 1, 1991, to limit the grace period to obtain required certifications for
individuals assigned to positions in support of contingency operations to 6 months.

Management Comments
The Director, Defense Procurement and Acquisition Policy, responding for the
USD(AT&L), disagreed with the original recommendation that USD(AT&L) revise DOD
Instruction 5000.66 to eliminate the 24-month grace period to obtain required
certifications for individuals assigned to positions in support of contingency operations.
The Director stated that DOD Instruction 5000.66, section E2.4.1.2, allows Components
to establish a plan for individuals to meet requirements within 24 months of placement or
within the timeframe established by the Component Acquisition Executive. The Director
also referred to the ability to use an in-theater DAWIA waiver authority if deemed
necessary. The Director noted that although it was the intent of DCMA to maintain an
agile, qualified workforce during contingency operations, section E2.4.1.2 provided

                                             18


flexibility for Components to establish a plan for an individual to meet the requirements
within 24 months of placement. The Director stated that in the event that the in-theater
operational mission necessitated implementation of the DAWIA waiver authority,
DCMA would instill precautions to ensure that uncertified individuals were provided a
structured and robust support system.

Our Response
The established 24-month grace period to obtain required certifications is too long for
contingency operations. DCMA management noted during the audit that DCMA
contingency operation deployments are 6 months and that personnel can be re-deployed
after a return to the United States. The DCMA managers agreed that such personnel are
deployed and potentially re-deployed without receiving proper certification. The
24-month grace period restarts with each re-deployment, which fosters a workforce not
adequately certified for contingency operations. Based on further discussions with
DCMA management, we revised the recommendation to limit the grace period for
individuals in contingency operations to 6-months. This would allow non-certified
individuals an initial deployment but would not extend the exemption for re-deployments.
We request further comments from the USD(AT&L) on revised Recommendation B.1.

B.2. We recommend that the Director, Defense Contract Management Agency:

       a. Review and update as needed, assigned civilian and military personnel
training records to determine whether Defense Acquisition Workforce
Improvement Act training has been completed and certification levels attained.

Management Comments
Responding for the Director of DCMA, the Director of Defense Procurement and
Acquisition Policy, agreed. The Director stated that DCMA will review training
certification records of personnel in key acquisition positions and update the records to
reflect methods of verification and to contain documented evidence when necessary. The
Director’s comments noted that the action was completed on December 1, 2009.

Our Response
The Director’s comments were partially responsive. In subsequent discussions, DCMA
management agreed that the December 1, 2009, date to update training certification
records of personnel in key acquisition positions had not been met and that DCMA had
adjusted the completion date to August 2010. No additional comments are required.

       b. We recommend that the Director, Defense Contract Management Agency,
revise Defense Contract Management Agency position descriptions to include
training requirements and certification levels in accordance with DOD Instruction
5000.66 and the Defense Acquisition University guidance.




                                            19


Management Comments
The Director of Defense Procurement and Acquisition Policy, responding for the Director
of DCMA, agreed. The Director stated that temporary duty personnel supporting CCAS
in-theater would retain their Permanent Duty Station position description and that DOD
Instruction 5000.66 provisions pertaining to training requirements and certification levels
were applicable only to permanent positions designated as Critical Acquisition Positions.
The Director stated that although DCMA adopted a resourcing strategy that maintained
key acquisition and contract oversight capabilities, duty descriptions were not updated to
reflect changes in DAWIA certification requirements. The Director stated that, based on
our recommendation, DCMA would change the timeframe of the semiannual position
validation and qualification designations to a quarterly review process that would have a
clear description of qualifications and certification requirements. The Director noted that
the action was completed on December 1, 2009.

Our Response
The Director’s comments were partially responsive. In subsequent discussions, DCMA
management agreed that the December 1, 2009 date to revise DCMA position
descriptions to include training requirements and certification levels in accordance with
DOD Instruction 5000.66 and the DAU guidance had not been met. We request that the
Director, DCMA, provide verification or a date when the recommended action will be
completed.

        c. We recommend that the Director, Defense Contract Management Agency,
ensure candidates possess required training and the appropriate Defense
Acquisition Workforce Improvement Act certification before deployment when
their assigned duties require them to support or administer contingency contracts
within a combat environment.

Management Comments
Responding for the Director of DCMA, the Director of Defense Procurement and
Acquisition Policy, agreed. The Director stated that DCMA will implement a
100-percent records validation of personnel scheduled for deployment to key acquisition
positions 30 days after the identification of key acquisition positions.

Our Response
The Director’s comments were responsive. On February 19, 2010, DCMA management
provided us documentation showing that DMCA had completed the identification of key
acquisition positions. Therefore, no additional comments are required.

       d. We recommend that the Director, Defense Contract Management Agency,
develop and institute a knowledge management transfer process for recurring
transitory acquisition workforce personnel supporting contingency contracting
operations or create permanent billets for acquisition workforce positions in
Southwest Asia.


                                            20

Management Comments
Responding for the Director of DCMA, the Director of Defense Procurement and
Acquisition Policy, agreed. The Director noted current DCMA knowledge management
processes for the transient workforce. The Director stated that DCMA will develop
additional processes for the transient workforce during the quarterly Management
Internal Control Review (or as required), if the current knowledge management processes
are not being fully implemented. The Director noted that these processes were a
continuous evaluation and improvement effort and did not have an implementation date.

Our Response
The Director, Defense Procurement and Acquisition Policy, comments were responsive,
and no additional comments are required.




                                          21


Appendix A. Scope and Methodology
We conducted this performance audit from September 2008 through September 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We attempted to determine DCMA requirements to SWA contracting operations and the
number of available DCMA civilian, military, foreign national, and support contractors
sustaining such operations. In addition, we evaluated whether the DCMA acquisition
workforce for SWA was adequately trained and certified. To accomplish the audit
objective, we met with officials from the Office of the USD(AT&L), Arlington, Virginia;
Headquarters, DCMA and DCMA International, Springfield, Virginia; DAU, Ft. Belvoir,
Virginia; and the Government Accountability Office in Arlington, Virginia. Our purpose
for these meetings was to obtain documentation of the workforce and training
requirements for personnel occupying positions in SWA from FY 2004 through FY 2009.
This information was gathered from the DCMA database. We assessed training records
from DCMA to determine if personnel providing support for SWA were adequately
trained for the positions held during that period. DCMA responsiveness to our
information requests was inhibited because of DCMA inability to quickly indentify,
extract, and provide to us hardcopy personnel, training, and certification records for
review.

Use of Computer-Processed Data
We obtained DCMA computer-processed fragmentary order (FRAGO) rosters that
contained personnel records of DCMA International positions, the individuals deployed
to SWA, and the dates those individuals were deployed on temporary duty in those
positions between the 4th Quarter FY 2004 through the 1st Quarter FY 2009 in support of
contingency contracting. From a universe of 1,170 records the Quantitative Methods and
Analysis Division within the DOD Office of Inspector General developed a statistical
sample of 221 records for the team to validate. We did not assess the reliability of the
computer-processed data because we were only using the data to execute the production
of a statistical sample. We only validated whether the data pertaining to DCMA
personnel’s DAWIA certification were accurate for the sample. We determined that
using the computer-processed data from DCMA would not affect the reliability of the
audit. See Appendix D for further discussion on the sampling methodology connected
with the universe of 1,170 records.

Use of Technical Assistance
The DOD IG Quantitative Methods and Analysis Division assisted the audit team in
conducting a statistical sample. See Appendix D for a detailed discussion of the
statistical sampling methodologies.


                                           22

Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the
Department of Defense Inspector General (DOD IG), Army Audit Agency, and the
Air Force Audit Agency issued 15 reports discussing the DOD acquisition workforce as it
pertains to SWA. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DOD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted Army reports can be accessed from .mil
and gao.gov domains over the Internet at https://www.aaa.army.mil. Air Force Audit
Agency reports can be accessed from .mil domains over the Internet at
https://afkm.wpafb.af.mil/ASPs/CoP/OpenCoP.asp?Filter=OO by those with Common
Access Cards.

Prior Coverage

GAO
GAO Report No. GAO-09-342, “Additional Actions and Data are Needed to Effectively
Manage and Oversee DOD’s Acquisition Workforce,” March 2009

GAO Report No. GAO-09-114R, “Contract Management: DOD Developed Draft
Guidance for Operational Contract Support but Has Not Met All Legislative
Requirements,” November 20, 2008

GAO Report No. GAO-08-966, “Rebuilding Iraq: DOD and State Department Have
Improved Oversight and Coordination of Private Security Contractors in Iraq, but Further
Actions Are Needed to Sustain Improvements,” July 2008

GAO Report No. GAO-08-269, “Defense Contracting: Contract Risk a Key Factor in
Assessing Excessive Pass-Through Charges,” January 2008

GAO Report No. GAO-07-145, “Military Operations: High-Level DOD Action Needed
to Address Long-Standing Problems with Management and Oversight of Contractors
Supporting Deployed Forces,” December 2006

GAO Report No. GAO-05-233, “Federal Acquisition: Progress in Implementing the
Services Acquisition Reform Act of 2003,” February 2005

DOD IG
DOD IG Report No. D-2009-091, “Information Operations Contracts in Iraq,” July 31,
2009

DOD IG Report No. IE-2009-006, “Review of Electrocution Deaths in Iraq: Part 1 -
Electrocution of Staff Sergeant Ryan D. Maseth, U.S. Army,” July 24, 2009



                                          23

DOD IG Report No. IPO2009E001, “Review of Electrocution Deaths in Iraq: Part II –
Seventeen Incidents Apart from Staff Sergeant Ryan D. Maseth, U.S. Army,” July 24,
2009

DOD IG Report No. SPO-2009-005, “Assessment of Electrical Safety in Afghanistan,”
July 24, 2009

DOD IG Report No. D-2009-114, “Transition Planning for the Logistics Civil
Augmentation Program IV Contract,” September 25, 2009

DOD IG Report No. D-2008-086, “Challenges Impacting Operations Iraqi Freedom and
Enduing Freedom Reported by Major Oversight Organizations Beginning FY 2003
through FY 2007,” July 18, 2008

DOD IG Report No. D-2006-073, “Report on the DOD Acquisition Workforce Count,”
April 17, 2006

Army Audit Agency
Audit Report: A-2008-0085-ALL, “Audit of Class III (Bulk and Retail) Fuel Operations
in the Iraq Area of Operations Audit of Logistics Civil Augmentation Program
Operations in Support of Operation Iraqi Freedom,” March 18, 2008

Air Force Audit Agency
Audit Report F200800006-FC1000, “Air Force Contract Augmentation Program,”
June 9, 2008




                                         24


Appendix C. Gansler Commission Report
Recommendations
On August 29, 2007, the Secretary of the Army established the independent Commission
on Army Acquisition and Program Management in Expeditionary Operations to review
the lessons learned in recent operations and provide recommendations to ensure that
future military operations achieve greater effectiveness, efficiency, and transparency. On
October 31, 2007, the Commission published, “Urgent Reform Required: Army
Expeditionary Contracting, Report of the Commission on Army Acquisition and Program
Management in Expeditionary Operations.” The report was also known as the Gansler
Commission Report.

The Gansler Commission Report found that DCMA was focused on the management of
weapons systems contracts and was not vetted nor resourced to provide operational
contract management for the types of contracting efforts supporting expeditionary
operations base, post, camp, and station contracts. The report also found the DCMA had
not been engaged in managing contracts in-theater, except in a limited capacity.
In addition, the report noted that DCMA was not currently positioned to perform most
expeditionary contract management functions. The Gansler Commission Report made
one recommendation to Congress and four recommendations to the Secretary of the
Defense (see Table 1).

                        Table 1. Gansler Report Recommendations

                Gansler Recommendations                        Section 849 DOD Task
                                                               Force Implementation
                                                               Status As of July 9, 2009*
      Authorize one joint three-star General Officer           In Progress
      as Commander of DCMA and reporting directly
      to USD AT&L (Congress)
      Assign DCMA the role of all base, post, camp,            Alternatives in Progress
      and station contract management
      Adequately resource DCMA for this expanded               Alternatives in Progress
      role, and have the required training
      Redefine DCMA’s scope                                    Alternatives in Progress
      Increase contracting personnel by 583 to fill            Alternatives in Progress
      DCMA billets for Army Support
*
 DCMA officials stated that DOD rejected four of the five Gansler Commission Report recommendations
directed to DCMA stating that the Military Departments would perform these functions.

Office of the Secretary of Defense Direction to DCMA
In November 2007, the Office of the Secretary of Defense directed DCMA to
immediately expand its contract management mission in the Central Command area of

                                                25
responsibility to administer all contracts JCC I/A delegated to DCMA. DCMA expanded
its contingency contracting administration services mission in Iraq, Afghanistan, and
Kuwait augmented with personnel from the Military Departments. DCMA and JCC-I/A
developed a concept of operations to outline the procedures for the delegation of TWCA,
covering the full range of contracts executed in theater.

The Gansler Commission Report recommended DCMA budget an additional 583 billets
for Army support. DCMA officials stated that the 583 billets the Gansler Commission
recommended was a best guess of the Commission. DCMA officials noted that there was
no model or support for the number of personnel requested by the Commission to support
contracting operations in SWA.

Section 849 of the FY 2008 National Defense Authorization Act
National Defense Authorization Act for FY 2008, section 849, “Contingency Contracting
Training for Personnel Outside the Acquisition Workforce and Evaluations of Army
Commission Recommendations,” approved January 28, 2008, directed the DOD to:

      evaluate the recommendations in the Gansler Commission Report,
      determine the extent to which such recommendations were applicable to the other
       Armed Forces, and
      submit a report no later than 120 days after Authorization Act enactment to the
       Congressional Defense committees with conclusions of the evaluation and a
       description of the Secretary of Defense’s plans for implementing the
       Commission’s recommendations for Armed Forces other than the Army.

DOD Task Force
On June 2, 2008, and in response to section 849 requirements, DOD issued the “DOD
Task Force on Contract and Contract Management in Expeditionary Operations, 2008
Report to Congress.” The DOD Task Force reviewed and analyzed Gansler Commission
Report recommendations. The DOD Task Force agreed with the Gansler Commission
report conclusions that DCMA in general did not provide contract administration for
service contracts nor for base, post, camp, and station service contracts. The DOD Task
Force also agreed with the Gansler Commission’s goal to achieve enhanced post-award
contract administration integrated through a DOD strategy to improve administration for
service contracts being developed to correct deficiencies in DOD contract management
designated as a Government Accountability Office (GAO) high-risk area.

The DOD Task Force report noted that although DCMA had assumed total responsibility,
based on delegated authorities from JCC-I/A for TWCA, DCMA’s long-term role would
be focused on contract management leadership, oversight, and on enhancing core
capabilities in systemic analyses of contractor performance. The DOD Task Force
concluded that the Military Departments would assume the majority of the long-term
TWCA and quality assurance responsibilities and DCMA would retain responsibility for
contract administration. DCMA would assist the Military Departments through Contract
Management Reviews in assessing the adequacy of base, post, camp, and station contract


                                          26


management, quality assurance, and contracting officer’s representative functions and
training. The DOD Task Force stated that the process would additionally facilitate
capturing best practices and standardizing procedures when appropriate.

The DOD Task Force report also noted that DOD was pursuing a 3-star General Officer
billet to head DCMA. In addition, DCMA would have a leadership role in establishing
the training requirements, and performing oversight of adherence to those requirements,
for contracting officer and quality assurance representatives. DOD and the Military
Departments would transition from the current approach to the future model over the
course of the next few years, with full implementation by 2012.




                                           27


Appendix D. Sample Methodology
Objective
The purpose of the statistical sampling was to select an appropriate sample from the
DCMA acquisition workforce personnel for SWA to determine if the personnel were
adequately trained and certified.

Population
The population of the sample consisted of 1,170 personnel deployment records. DCMA
provided FRAGO deployment rosters from fiscal years 2004 to 2009. The audit team
compiled the rosters to create one database, using, if possible, the FRAGO roster dated
October and April of each fiscal year. We chose to capture the beginning and mid year of
DCMA’s fiscal year. Also, because most positions deployed on a 6-month temporary
duty basis, October and April were deemed appropriate. FRAGO records that did not
have an individual in the ‘current deployed last name’ field were removed from the
population. We also removed records that appeared to be captured more than once in the
population. This determination was made based on the individuals’ last name and the
end of rotation date.

Sample Design and Size
For this sample, each record in the FRAGO roster was given a record number. The
population was stratified by country to which the employee was assigned (Afghanistan,
Iraq, Kuwait, or “Other”). The Quantitative Methods and Analysis Division developed a
stratified random sample design using 90-percent confidence level. The sample size of
221 was selected from a population of 1,170 employees.

Sample Result Categories
To analyze the randomly selected sample, the audit team grouped employees according to
the position they occupied. The positions include: administrative contracting officer,
property administrator, contract administrator, quality assurance representative,
commander, operations officer, and administrative. In addition to grouping the sample
according to position occupied, we also used the sample to perform a trend analysis to
ascertain whether DCMA was improving from one fiscal year to another. Due to time
constraints, we did not interview DCMA personnel deployed to SWA to verify the work
assigned and performed.

Use of Sample Projections
We did not include in this report projections of the number of DCMA SWA personnel
not fully qualified for positions occupied, or the number of DCMA SWA quality
assurance representatives supporting contingency contracting operations that did not have
or could not produce proof of DAWIA certification because we lacked confidence in the
accuracy of FRAGO deployment roster data used in DCMA personnel records. These
projections are available upon request.


                                           28

Appendix E. Administrative Contracting
Officers in Southwest Asia
ACO duties consist of performing contract administration services and Logistics Civil
Augmentation Program (LOGCAP) oversight duties to support a contingency base of
military and contractor personnel in SWA. The duties vary depending on location. The
following are examples of ACO duties.

    		 ACO provides independent Government oversight of the LOGCAP contractor
        performing support services and task orders for dining, maintenance, billeting,
        airfield, transportation, aerial operations and base development, construction and
        maintenance during contingency operations, and morale, welfare, and recreation.
    		 ACO performs contract administration for LOGCAP services such as airfield
        operations support, transportation, aerial/seaport operations support, and base
        camp maintenance and minor construction.
    		 ACO monitors contractor costs, holds scheduled contractor performance
        meetings, reviews schedules, specifications, material requirements, and pertinent
        contractual clauses to determine administrative functions to be performed.
     ACO contacts the responsible buying activities to resolve contract discrepancies
        and contacts the contractors to clarify issues on contractual requirements.
     ACO initiates contract changes to meet changing combat mission needs and
        provides performance feedback to the contractor on a monthly basis.

In Central Iraq, the ACO positions are divided between Air Force Contract Augmentation
Program, LOGCAP, and TWCA.

The ACO for the Air Force Contract Augmentation Program position at Camp Taji has
the responsibility of administering the $183 million Air Force Contract Augmentation
Program with multiple contracts. The ACO performs lead contract administration
services and oversight duties to support the Air Force Contract Augmentation Program
contract including the review of schedules, specifications, material requirements, and
pertinent contractual clauses to determine the administrative functions to be performed.

ACO (LOGCAP) administers the LOGCAP task orders providing full range of life
support services to military and contractor personnel. They provide necessary inputs and
expertise to support mission updates and maintain daily situational awareness and closely
coordinate with both military and civilian military officials.

ACO TWCA administers theater-wide private security contractor contracts, life support,
equipment maintenance and critical services delivery orders, task orders, and blanket
purchase calls.




                                            29


Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments




                                                r--
                                     THE UNDER S E CRETA RY OF D E FENSE
                                              3010 DEFENSE PENTAGON
                                             WASH INGTON. DC 2 0 3 0 1-30 10




     ACQUlsmON,
                                                                                          DEC 14 mI
     TECHNOLOGY
     AND LOGIS'T1CS


           MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL AND DIRECTOR,
                            DEFENSE FINANCIAL AUDITING SERVICE, DoDIG

           THROUGH: DIRECTOR, ACQUISITION RESOURCES AND ANAL YSIS                           ~\ \<t. \O~
           SUBJECT: Response to DoDIG Draft Report on Defense Contract Management Agency
                    Acquisition Workforce for Southwest Asia (Project No. D2008·DOOOAB·
                    0266.000)

                      As requested, I am providing responses 10 the general content and
           recommendations contained in the subject report.

           Recommendation A l a:
           We recommend that the Under Secretary of Defense for Acquisition, Technology, and
           Logistics revise 000 Instruction 5000.55, "Reporting Management Infonnation on DOD
           Military and Civilian Acquisition Personnel and Positions," November 1, 199 1, to require
                                         Click to add JPEG file
           Defense agencies to develop guidance to identify acquisition workforce requirements
           including the number of military and civilian personnel needed to support their
           acquisition and contracting operations.

           Respo nse:
           Concur with comment (Technical Correction). DODI 5000.66 is the appropriate DODI .
           DODI 5000.55 will be cancelled in 20 I 0 and rei ssued as a DOD manual.

           0001 5000.66 will be revised to "Require Military Departments and Defense Agencies
           to develop guidance to identify acquisition, technolOgy and logi stics workforce
           requirements in accordance with 0001 1400.25: Vo lume 250, Civilian Strategic Human
           Capital Planning (SHCP); DoDI 1100. 22, Guidance for Determining Workforce Mix;
           and DoD Financial Management Regulation 7000.14·R, Volume 28, Chapter 19."

           Completion Date: June 30, 2010

           Reeornrnendation A l b:
           We recommend that the Under Secretary of Defense for Acquisition, Technology, and
           Logistics perfonn quarterly reviews of the joint Contracting Command Iraq/Afghanistan
           requirements of the Defense Contract Management Agency's Southwest Asia acquisition
           workforce.




                                                                       30
Response:
Concur with comment. The responsibility for determining the DCMA workforce
requirements necessary to support lCC- UA requirements is ajoint responsibility between
USCENTCOM, the U.S. Anny as the Executive Agent for Contracting in Iraq and
Afghanistan, lCC-UA and DCMA. USD (AT&L) will ensure these reviews are executed
to determine the appropriate DCMA manning level to support Contingency Contract
Administration Services (CCAS), but should not be performing these quarterly reviews in
place of USCENTCOM. As a Combat Support Agency, DCMA is responsib le for
providing CCAS support to USCENTCOM. USCENTCOM, in tum, is responsible for
giving authoritative direction regard ing its CCAS requirements to support its military
operations to DCMA. In response, DCMA provides by-name reporting of deployed
personnel to USCENTCOM on at least a quarterly basis. The criticality of DCMA's
CCAS personnel to the current fight has ensured constant OSD high level focus and
associated management attention to related manpower resourcing issues. USD (AT&L)
stood up a separate joint working group and senior leadership management oversight
team to di scuss exclusively the DCMA CCAS role and responsibilities and the Services'
role in CCAS in the future. As part of this ongoing discussion, resources are a "front and
center" concern.

Recommendation A.2.:
                           Click to add JPEG file
We recommend that the Director, Defense Contract Management Agency, develop a
written plan within 90 days from the date of this report defining civilian and military
acquisition workforce requirements needed to support contracting operations in
Southwest Asia.

Response:
Concur. Over the last several years, the DCMA Contingency Contract Administration
Services (CCAS) mission has grown and evolved as a result of our increased mission and
contract delegations. Although lacking a deliberate, documented policy, DCMA
collaborated with organizations providing contract delegations and performed adaptive
resource requirements analyses in a dynamic contracting support atmosphere. As part of
the changing Southwest Asia operational environment, DCMA has continuously refined
its military and civilian human capital resource plan and requirements to ensure that it
will be able to deploy qualified personnel and meet its delegated theater contract
oversight support obligations. DCMA prepared a draft CCAS concept of operations that
provides our concept for executing the CCAS mission. However, the specific ski ll sets
and staffing structure required to execute tooay's CCAS miss ion is and will continue to
be situation dependent, mission focused and war fighter requirements driven, given the
dynamic and continuously evolving ("state of flux") hostile combat environment beyond
DCMA's control. As requirements are identified, DCMA will continue to use its existing
and published contract receipt & review process to identify and define the required
civilian and military acquisition workforce requirements to support delegated acquisition
support operations in Southwest Asia. To minimize the reactive nature afthe delegation




                                                        31
                                                                                               Final Report 

                                                                                                Reference






process in thi s constantly changing environment, DCMA has proactively integrated itself
with the theater leadership command structure to identify, define and help focus future
workload requirements. This alignment has produced positive results that have helped
minimize but not eliminate the reactive nature of the theater delegation process and the
unpredictable requirements driven dynamic combat environment. Once the CONOPS is
published, DCMA will be in compliance with the executable intent of DoDiG
recommendation A.2 .

DCMA will review current (draft) CONOPS, ensuring the intent of DoDiG
recommendation is addressed, thus establishing written procedures defining civilian and
military acquisition workforce requirements needed to support current and future CCAS
missions.

Completion Date: January 15, 20 I 0

Recommendation B.l:
We recommend thatlhe Under Secretary of Defense for Acquisition, Technology and
Logistics revise DOD Instruction 5000.66, "Operation of the Defense Acquisition,
Technology and Logistics Workforce Education, Training and Career Development
Program," to eliminate the 24-month grace period to obtain required certi ticalions for
                           Click to add JPEG file
individuals assigned to positions in support of contingency operations.

Response:
Non-concur. The DoDIG recommendation is not consistent with the desired result of            Revised 

establishi ng and maintaining an agile, qualified workforce during contingency operations.
The intent is to identify acquisition qualification requirements for the contingency
positions and to fill these requirements with properly trained and certified acquisition
professionals.

DoD 5000.66, E2.4. 1.2 already provides the flexibility for components to establish a plan
fo r the individual to meet the requirements within 24 months of placement or other period
established by the CAE. In the event in-theater operational mission necessitates
implementation of DA WlA waiver authori ty, DCMA will instill precaution s to ensure the
uncertified individual is provided a structured, robust support structure.

Recommendation B.2a:
We recommend that the Director, Defense Contract Management Agency review and
update as needed, assigned civilian and military personnel lraining records to determine
whether Defense Acquisition Workforce Improvement Act training has been completed
and certification levels attained.




                                                       32
Response:
Concur. The in-theater DCMA CCAS mission differs significantly from the acquisition
life-cycle support mission. Therefore, competency-based training aligned to CCAS
requirements is essential to provide the service expected by our nation ' s warriors.

DCMA will review training and certification records of all personnel currently assigned
to key acquisition positions. Records will be updated to retlect method of verification
and documented evidence when necessary.

Completion Date: December I, 2009


Recommendation B.2.h:
We recommend that the Director. Defense Contract Management Agency revise Defense
Contract Management Agency position descriptions to include training requirements and
cert'ification levels in accordance with DOD Instruction 5000.66 and the Defense
Acquisition University guidance.

Res ponse:
Concur with Comment. DCMA support'S our in-theater manning requirement through
                          Click to add JPEG file
Temporary Duty (TDY) assignments and establishes a "statement of assigned duties",
Personnel performing TDY in suppon of CCAS retain their Permanent Duty Station
(PDS) position description, Therefore, the provisions of DOD Instruction 5000,66 and
Defense Acquisition University guidance are applicable onl y to the pennanent position.
whereby the position designation as a Critical Acquisition Position (CAP) is determined
by the supervisor of record and reflected in the Defense Civilian Personnel Data System
(DCPDS),

When initially delegaled LOGCAP & AFCAP contract administration, DCMA utilized
their Acquisition Lifecycle resourcing model, whereby the DA WIA certification
requirements were a part of the resource requirement determination. As the CCAS
mission parameters were better defined and scoped and expansion of Theater-Wide
Contract Administration occurred, OCMA adjusted its staffing construct. DCMA
adopted a strategy that maintained key acquisition and contract oversight capabilities
through a ;'hub and spoke" concept. Theater and Lead positions requiring DA WIA
certification were estab li shed, thus providing leadership and mentoring to personnel
assigned lower risk contract oversight activities. Although this effective CCAS
resourcing strategy was implemented, the dUly descriptions were not updated to reflect
the changes to the DA WIA certificat ion requirements.

Regarding the current in·theater assignments and related duties, DCMA monitors the
qualifications of assigned personnel and in some cases uses the OA WIA certification as a
measure of qualifications to perfonn assigned duties. In the event the assigned duties




                                                      33
require a warrant or DAWIA certification, the position is so identified to the sourcing
activity.

DCMA performs semi-annual position validation and qualification designations. Given
the evolving workload allocations within theater, DCMA will adjust to a quarterly review
schedule. Future in-theater resource requirement reviews will reflect a clear description
of qualifications and certification requirements. The DCMA sourcing activity will
review personnel records, ensuring a correlation of personnel qualification to position
assignment.

Nexl Review Dale: December I. 2009

Recommendation B.2.c:
We recommend that the Director, Defense Contract Management Agency ensure
candidates possess required training and the appropriate Defense Acquisition Workforce
Improvement Act certification before deployment when their assigned duties require
them to support or admini ster contingency contracts within a combat environment.

Response:
Concur. DCMA will enhance our pre-deployment training and certification records
                            Click to add JPEG file
review of personnel scheduled for deployment. DCMA will inslirure a 100% records
validation of personnel scheduled for deployment to key acqu isition positions.

Estimated Completion Date: 30 days after identification of key acquisition positions

Recommendation B.2.d:
We recommend that the Director, Defense Contract Management Agency develop and
institute a knowledge management transfer process for recurring transitory acquisition
workforce personnel supporting contingency contracting operations or create permanent
billets for acquisition workforce positions in Southwest Asia.

Response:
Concur. DCMA uses three methods for knowledge management and process
improvement relating to the transient workforce. The primary method to knowledge
management is conducted during our Left Seat-Right Seat Transition Program where the
outbound and inbound personnel conduct a battle hand-ofT during their overlap period.
One of the tools used to help facilitate this effort is the in-theater continuity folders. Each
person is required to prepare or update an electronic or hard copy folder for the capture
and transfer of critical documentation, meeting schedules, points of contacl, lessons
learned etc. Other tools used for knowledge management are the in-theater shared
network drive along with the administrative contracting officer and quality assurance
databases. Finally, DCMA seeks continuous improvement opportunities in the form of
after action reports and applies the results/lessons learned to the DCMA Basic




                                                         34
Contingency Operations Training. As the knowledge management processes described
herein were nOl being fully implemented. DCMA wi ll develop appropriate implementing
guidance and validate the in-theater knowledge transition process during our quarterly
Management Internal Control Review (MICR) or as required. MICR validates the
existing process and, ifneed be, either improves the process or, ifnecessary, develops a
new process.

Estimated Completion Date: Continuous evaluation and improvement.

       Technical comments regarding text in this draft report. including recommended
revisions, are provided in the enclosure.

      Please contact• • • • • • • • • • • • • • • • • • • • if add it ional
information is required.




                                            ~,,~
                          Click to add JPEG file
                                                D eeto Defense Procurement
                                                  an Acquisition Policy




                                                      35
